CO KLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga l B rie fs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-267

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE STATE OF ALASKA AND
THIRTEEN OTHER STATES IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
KEVIN G. CLARKSON
Attorney General of Alaska

DARIO BORGHESAN
KATHERINE DEMAREST
Counsel of Record

ANNA JAY

1031 West Fourth Avenue
Anchorage, Alaska 99501
(907) 269-5100
kate.demarest@alaska.gov

Subscribed and sworn to before me this 27th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . Mitt. a Chk,
State of Nebraska . ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38711
SERVICE LIST

Eric Christopher Rassbach

The Becket Fund for Religious Liberty

1200 New Hampshire Avenue, NW

Suite 700

Washington, DC 20036

(202) 955-0095

erassbach@becketlaw.org

Attorney for Petitioner Our Lady of Guadalupe School

Joseph M. Lovretovich

Cathryn Fund

Andrew Pletcher

JML Law

5855 Topanga Canyon Boulevard
Suite 300

Woodland Hills, CA 91367

(818) 610-8800
JML@jmllaw.com
Cathryn@jmllaw.com
Andrew@jmllaw.com

Attorneys for Respondent Agnes Morrissey-Berru
